Case: 19-10685

Document: 00515639856

Page: 1

Date Filed: 11/16/2020

®intteb States: Court of Appeals
for ttjc Jftftf) Circuit
No. 19-10685

Vinicio Jesus Garcia,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-262

ON PETITION FOR REHEARING EN BANC
Before Jones, Costa, and Wilson, Circuit Judges.
Per Curiam:
( X) Treating the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. No
member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5th Cir. R. 351. the Petition for Rehearing
En Banc is DENIED.

Case: 19-10685

Document: 00515639856

Page: 2

Date Filed: 11/16/2020

19-10685

( )

Treating the Petition for Rehearing En Banc as a Motion for
Reconsideration, the Motion for Reconsideration is DENIED. The
court having been polled at the request of one of the members of the
court and a majority of the judges who are in regular active service and
not disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 351, the Petition for Rehearing En Banc is DENIED.

2

Case: 19-10685

Document: 00515555292

Page: 1

Date Filed: 09/08/2020

tHmteb States Court of Appeals!
for tJ)t JftftI) Circuit
No. 19-10685

A True Copy
Certified order issued Sep 08, 2020

dwQ W. Ct>ujtA
Clerk, U.S. Court of Appeals, Fifth Circuit

Vinicio Jesus Garcia

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.
i:

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CV-262

.

ORDER:
Vinicio Jesus Garcia, Texas prisoner # 1828198, was convicted by a
jury of murder and received a sentence of life in prison. He now seeks a
certificate of appealability (COA) to appeal the district court’s dismissal as
untimely of his 28 U.S.C. § 2254 petition challenging this conviction. Garcia
asserts that he is entitled to equitable tolling of the one-year limitations period
set forth in 28 U.S.C. § 2244(d). Specifically, he relies on the delay in
receiving a copy of his trial attorney’s records, the failure of his appellate
attorney and the trial court to provide him with the trial transcript, an eightmonth delay in receiving notice that .the Texas Court of Criminal Appeals

Case: 19-10685

Document: 00515555292

Page: 2

Date Filed: 09/08/2020

No. 19-10685

had denied his postconviction application, and the refusal of prison officials
to provide him with the envelopes and stamps needed to mail his § 2254
petition to the district court.
In order to obtain a COA to appeal the denial of a § 2254 petition,
Garcia must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537 U.S. 322,
336 (2003). He will satisfy this standard “by demonstrating that jurists of
reason could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.
Because the district court dismissed Garcia ’s petition on procedural grounds,
he is required to show, “at least, that jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable whether the district court
■ was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484
(2000). Garcia has not made the requisite showing. Accordingly, his motion
for a COA is DENIED.

Gregg C0st/
United StatesCircuit Judge

2

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 1 of 8 PagelD 1341
>-

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
VINICIO JESUS GARCIA, #1828198,
Petitioner,
v.

§
§
§
.§

§

LORIE DAVIS, Director, Texas
Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

Civil Action No. 3:18-CV-262-L

§
§
§
§
§
§

MEMORANDUM OPINION ORDER
On September 26, 2018, United States Magistrate Judge David L. Horan entered the
Findings, Conclusions and Recommendation of the United States Magistrate Judge (“Report”),
\ ,

recommending that the court deny Petitioner’s habeas petition because his two habeas claims are
time-barred and not equitably tolled as follows:
Under Section 2244(d)(2), the one-year period to file a federal habeas petition
was tolled from November 16,2015 to July 13, 2016 the soonest date that Garcia
could have his state habeas application to the date that the CCA [Texas Court of
Criminal Appeals] denied that application. Adding these some 240 days to the
one-year period that commenced on February 24,2015 means that Garcia’s Section
2254 application should have been filed before the end of October 2016.
[Garcia’s habeas] application was not docketed in this Court until February
1,2018. See Dkt. No. 1. Notably, Garcia appears to represent that he executed it on
January 25, 2018. See id. at 10. And he argues in that application, see id., and
elsewhere, see generally Dkt. No. 21, that prison officials prevented the timely filing
of his Section 2254 petition because he was denied an envelope (in April or May
2017) and because his belongings, including legal materials, were ransacked (in late
November 2017).
First, to the extent that these contentions are made to assert statutory tolling
under Section 2244(d)(1)(B), the United States Court of Appeals for the Fifth Circuit
has held that, in order to invoke statutory tolling based on an alleged government
impediment, “the prisoner must show that: (1) he was prevented from filing a petition
Memorandum Opinion and Order - Page 1

s

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 2 of 8 PagelD 1342

(2) by State action (3) in violation of the Constitution or federal law.” Egerton v.
Cockrell, 334 F.3d 433,436 (5th Cir. 2003). “These requirements imply an element
of causality and materiality with respect to a prisoner’s ability to file his ... federal
petition. Thus, [a petitioner] ‘must also show that. . . [the impediment] actually
prevented him from timely filing his habeas petition.’” Clark v. United States, Nos.
3:13-cv-1851-N-BK & 3:92-cr-382-N-l, 2013 WL 5873294, at *2 (N.D. Tex. Nov.
1, 2013) (quoting Krause v. Thaler, 637 F.3d 558, 561 (5th Cir. 2011); citations
omitted; emphasis in Krause); see also Winkfield v. Bagley, 66 F. App’x 578, 583
(6th Cir. 2003) (“Section 2244(d)(1)(B) requires a causal relationship between the
unconstitutional state action and being prevented from filing the petition.” (quoting
Dunker v. Bissonnette, 154 F. Supp. 2d 95,105 (D. Mass. 2001)).
Garcia has not made this showing. Nor has he made a showing that these
claims support equitable tolling. His State-created-impediment assertions are
conclusory, in that he fails to specify that (or how) the alleged actions were in
violation of the Constitution or federal law and that these actions specifically
prevented the timely filing of this petition. There is therefore no alleged causal
relationship between the State action alleged and Garcia’s being prevented from
filing (much less timely filing) the Section 2254 petition. See, e.g., Alston v. Thomas,
Civ. No. 11-00062 HG-BMK, 2011 WL 4929139, at *7 (D. Haw. Oct. 17, 2011)
(“Neither Alston’s inability to physically attend the law library during the 99 days
that SCF was in lockdown in 2010, the lack of inmate or trained paralegal assistance,
nor the alleged lack ofpens, papers, envelopes, and stamps constituted State created
impediments within the meaning of § 2244(d)(1)(B).”).
But, even ifthe Court accepts the earliest date that Garcia claims he attempted
to mail the Section 2254 application April 20,2017 see Dkt. No. 3 at 10, that date
is still some 6 months too late. In sum, then, Garcia has not demonstrated that he is
entitled to equitable tolling by showing that “rare, exceptional, or extraordinary
circumstances beyond his control... made it impossible for him to timely file” his
federal habeas application. Montes v. United States, Nos. 3:13-cv-1936-K &
3:09-cr-286- K (4), 2014 WT 5286608, at *3 (N.D. Tex. Oct. 15, 2014) (citations
omitted); see also Menomit.
'dian Tribe \pfWis. v. United States, 136 S. Ct. 750,
755-56 (2016)]; Holland [v. Flonda, 560 U.S. 631,649 (5th Cir. 2010)]; Farmer,[v.
D&O Contractors, 640 F. App’x 302, 307 (5th Cir. 2016) (per curiam)]
Report 5-7.
Petitioner filed objections to the Report, which v/ere docketed on October 10, 2018.
Petitioner disagrees with the magistrate judge’s calculation of the time during which his period for
filing a federal habeas petition was tolled. In this regard, Petitioner asserts, under penalty of perjury,
that, because he did not receive notice that the Texas Court of Criminal Appeals (“TCCA”) had
Memorandum Opinion and Order - Page 2

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 3 of 8 PagelD 1343

denied his state habeas application until March 31,2017, more than eight months after it was denied,
the time for filing his federal habeas petition was tolled until that date, not July 13, 2016, as
determined by the magistrate judge. Petitioner, therefore, asserts that the tolling period was extended
261 days longer than the date determined by the magistrate judge. Petitioner also disagrees with the
magistrate judge’s determination that his assertions regarding a state-created impediment are
conclusory and continues to maintain that, after learning his state habeas petition was denied, prison
officials denied his requests for supplies needed to prepare his federal habeas petition and an
envelope and stamps to mail his petition.
-sr

The one-year limitations period for filing a federal habeas petition “is subject to equitable
tolling only ‘in rare and exceptional c ire-ms lances.’” Hardy v. Quarterman, 577 F.3d 596,598 (5th
Cir. 2009) (citation omitted). For equitable tolling to apply, “[a] petitioner’s failure to satisfy the
statute of limitations must result from external factors beyond his control; delays of the petitioner’s
own making do not qualify.” Id. (quoting In re Wilson, 442 F.3d 872, 875 (5th Cir. 2006)). This is
because “equity is not intended for those who sleep on their rights.” Fisher v. Johnson, 174 F.3d
710, 715 (5th Cir. 1999). It is the petitioner’s burden to establish that equitable tolling is justified
under the circumstances. Hardy, 577 F.3d at 598 (citation omitted).
“Equitable tolling applies principally where the plaintiff is actively misled by the defendant
about the cause of action or is prevented in some extraordinary way from asserting his rights.”
Melanconv. Kaylo, 259 F.3d401,408 (5th Cir. 2001) (quoting Rashidi v. American President Lines,
96 F.3d 124,128 (5th Cir. 1996)). The TCCA is required “to notify a petitioner once a decision has
been rendered on his habeas petition.” Hardy, 577 F.3d at 598 (citation omitted). Long delays in
receiving notice that a decision has been rendered on a state habeas petition may entitle a petitioner
to equitable tolling. Hardy, 577 F.3d at 598; Phillips v. Donnelly, 216 F.3d 508, 511 (5th Cir.),
Memorandum Cpinion and Order - Page 3

Tj

"

'■ v

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 4 of 8 PagelD 1344

modified,on reh’g, 223 F.3d 797 (5th Cir. 2000); see also Fisher, 174 F.3d at 715 (“In the right
*

fx*

„ "'circumstances, a delay in receiving information might call for equitable tolling-such as if the prison
^

s'
■t:

•

; did not obtain copies of AEDPA for months and months.”); but see Felder v. Johnson, 204 F.3d 168,
■:

172 (5th Cir. 2000) (declining to follow foregoing quoted language in Fisher as dicta). Equitable
tolling, however, only applies when a habeas petitioner diligently pursues habeas corpus relief
“before and after receiving notification” of a decision on a state habeas petition. Hardy, 577 F.3d
at 598 (citations omitted).
In Hardy v. Quaterman, the Fifth Circuit addressed the timeliness of a petitioner’s inquiry
regarding the status ofhis habeas application. Id. at 598-99. The petitioner in Hardy did not receive
notice of the TCCA’s decision until almost a year later. Id. In determining whether the petitioner
acted diligently, the Hardy court looked at two unpublished cases: Lewis v. Cockrell, 275 F.3d 46,
2001 WL1267701 (5th Cir. Oct; 15,2001); and Coker v. Quarterman, 270 F. App’x 305,2008 WL
724042 (5th Cir. March 17, 2008). Hardy, 577 F.3d at 599. The petitioner in Lewis waited
approximately two and a half years before inquiring about the status of his state habeas petition,
which v/as determined not to be diligent. Id. In contrast, the petitioner in Coker waited only eight
Y

months to inquire about the status of his case, and, after not hearing anything, inquired again a year
later, which was determined to be diligent. Id. The petitioner in Hardy waited less than one year,
approximately eleven months, before contacting the trial court, and this time period was also
determined to be reasonable and diligent. Hardy, 577 F.3d at 599-600.
In this case, Respondent submitted evidence that shows notification by the TCCA was sent
to Garcia on July 13,2016, at the Clements Unit where he is still housed. Resp’t Ex. E. Petitioner,
nevertheless, asserts in his federal habeas petition (Doc. 3) and unsworn affidavit (Doc. 8) and states
in his sworn objections to the Report that he did not receive notice until March 31, 2017,
Memorandum Opinion end Order - Page 4

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 5 of 8 PagelD 1345

approximately eight months later, because of ongoing problems with the prison’s law library and
mail room. Petitioner further states in his sworn objections that he first learned that his habeas
petition was denied when the TCCA responded to “[his] motion for stay and abeyance to file an
amended 11.07 [habeas application].” Obj. 2.
In response to Petitioner’s federal habeas application, Respondent argues that Petitioner’s
complaints regarding access to mail and supplies beginning in March 2017 are insufficient because
they do not account for file untimeliness of his federal habeas petition that was due several months
earlier by October 12, 2016,1 and, thus, could not have prevented him from filing timely a federal
habeas petition. Respondent further contends that Petitioner’s allegation that he did not receive
notice of the TCCA’s denial of his state habeas application until March 31, 2017, are similarly
unavailing and do not entitle him to equitable tolling under Hardy because he has not demonstrated
that he exercised diligence in inquiring about the status of his state habeas application.2 The court
agrees.
Even accepting as true Petitioner’s statements that he did not have adequate access to writing
materials, envelopes, and stamps between March and April 2017 and did not leam until March 31,
2017, that the TCCA denied his state habeas application, the court determines that he is not entitled
to equitable tolling of the deadline for filing his federal habeas petition because he has not shown
that he exercised reasonable diligence both “before and after receiving notification” of the TCCA’s

1 The magistrate judge’s calculation would have made Petitioner’s deadline for filing a federal habeas petition
October 21,2016, by adding one year and 240 days to February 24,2015, the date Petitioner’s state criminal judgment
became final for purposes of the AEDPA, which accounts for the 90-day period after the TCCA refused his petition for
discretionary review.
2 Respondent also cites Palacios v. Stephens, 723 F.3d 600,606 (5th Cir. 2013), for the proposition that only
when “the ‘specific circumstances’ of the case ‘warrant special treatment’ will a prisoner who did ‘not hire an attorney
within four months of the date his AEDPA limitation period begins to run’ be able to establish reasonable diligence.”
Resp’t Resp. 7.
Memorandum Opinion and Order - Page S

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 6 of 8 Page ID 1346

July 13,2016 decision. Hardy, 577 F.3d at 598 (citations omitted). Petitioner does not maintain in
his federal habeas petition or in his objections to the Report that he ever inquired about the status
of his state habeas petition. Moreover, while evidence in this case indicates that Petitioner actively
participated in his states habeas proceeding by submitting various materials to the TCCA for
consideration in conjunction with his state habeas application between March 4,2016, and April 3,
2017, he never once inquired about the status of his state habeas application. He, instead, learned of
the July 13, 2016 ruling as a result of the TCCA’s “quick response” to a motion, dated March 21,
2017, that he filed in an effort to stay his state habeas proceeding.
Specifically, Petitioner filed a total of nine documents between March 4,2016, and April 3,
.i

2017, in which he: (1) objected to the States’s amended response to his habeas application; (2)
objected on two separate occasions to the state district court’s findings and recommendation
regarding his habeas application because the court did not respond to his request for a ruling on his
January 29,2016 objections before entering its findings and recommendation and failed to address
the issue of whether his appellate counsel provided ineffective assistance of counsel; (3) filed a
“Restatement of Ineffective Assistance of Appellate Counsel” claim; and (4) filed two motions for
stay and abeyance of his state habeas proceeding before and after the TCCA’s July 13,2016 ruling,
based on his contentions that he: (a) was entitled to counsel to file an ineffective assistance of
counsel claim; (b) had not received a copy of his appellate attorney’s affidavit regarding his
ineffective of assistance of counsel allegation; (c) had moved for discovery regarding the State’s
amended response to his state habeas petition; and (d) needed more time to file an amended 11.07
state habeas application because he had been denied supplies needed to prepare and mail an amended
application in March 2017. Again, however, none of these submissions by Petitioner includes a
request regarding the status of his state habeas application, although Petitioner could have easily
Memorandum Opinions and Order - Page 6

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 7 of 8 PagelD 1347

inquired about the status of his state habeas application. Moreover, the number of submissions that
Petitioner filed in support of his state habeas application that were stamped received by the TCCA
undercut his contention that he was denied access to the courts at the state or federal level or
prevented from filing timely his federal habeas application as a result of an ongoing problem at the
prison in sending and receiving mail or his being denied writing and mailing materials.
Because the record indicates that Petitioner was able to and did file a number of number of
materials pertaining to his state habeas proceeding but did not inquire about the status of his state
habeas application, the court determines that equitable tolling does not apply, as he did not diligently
pursue habeas corpus relief both before and after learning that he state habeas petition had been
denied. Hardy, 577 F.3d at 598 (citations omitted). For the same reasons, the record does not
support a finding that he was actively misled or prevented in “some extraordinary way from asserting
his rights,” particularly in light of the number of filings he submitted regarding his state habeas
proceeding. Melancon, 259 F.3d at 408 (citation omitted); see also Pacheco v. Rice, 966 F.2d 904,
906-07 (5th Cir. 1992) (“Equitable tolling is appropriate whe[n], despite all due diligence, a plaintiff
is unable to discover essential information bearing on the existence of his claim.”). The court,
therefore, agrees with the magistrate judge that Petitioner lias not demonstrated that any
unconstitutional state action prevented him from filing his petition. Accordingly, for all of these
reasons, Petitioner has not satisfied his burden of establishing that equitable tolling is justified under
the circumstances of this case. Hardy, 577 F.3d at 598 (citation omitted).
Having reviewed the habeas application, file, record in this case, and Report, and having
conducted a de novo review of that portion of the Report to which objection was made, the court
determines that the findings and conclusions of the magistrate judge are correct, and accepts them

Memorandum Opinion and Order - Page 7

Case 3:18-cv-00262-L-BN Document 25 Filed 05/20/19

Page 8 of 8 PagelD 1348

as those of the court as supplemented by this opinion. The court, therefore, overrules Petitioner’s
objections, denies his habeas application, and dismisses with prejudice this action.
Considering the record in this case and pursuant to Federal Rule of Appellate Procedure
22(b), Rule 11(a) of the Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c),
the court denies a certificate of appealability.3 The court determines that Petitioner has failed to
show: (1) that reasonable jurists would find this court’s “assessment of the constitutional claims
debatable or wrong;” or (2) that reasonablejurists would find “it debatable whether the petition states
a valid claim of the denial of a constitutional right” and “debatable whether [this court] was correct

5--:

5*.

in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). In support of this

if

determination, the court accepts and incorporates by reference the Report filed in this case. In the
event a notice of appeal is filed, Petitioner must pay the $505 appellate filing fee or submit a motion
to proceed in forma pauperis on appeal.
St is so ordered this 20th day of May, 2019.
£2

Sam A. Lindsay
United States District Judge

3 Rule 11 of the Rules Governing §§ 2254 and 2255 Cases provides as follows:
(a)
Certificate of Appealability. The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Before entering the final order, the
court may direct the parties to submit arguments on whether a certificate should issue. If the court
issues a certificate, the court must state the specific issue or issues that satisfy the showing required
by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, the parties may not appeal the denial but
may seek a certificate from the court of appeals under Federal Rule of Appellate Procedure 22. A
motion to reconsider a denial does not extend the time to appeal.
(b)
Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to
appeal an order entered under these rules. A timely notice of appeal must be filed even if the district
court issues a certificate of appealability.
Memorandum Opinion and Order - Page 8

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 1 of 8 PagelD 1329

IN THE UNITED STATES DISTRICT COURT
NORTHEJlN;DISTRICT OF TEXAS
DALLAS DIVISION

•> ,

VINICIO JESUS GARCIA
(TDCJ No. 1828198),
Petitioner,
V.
LORIE DAVIS, Director
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

A- >

§
§
§
§
§
§
§
§
§
§
§

,

*.V-

No. 3:18-cv-262-L-BN

v

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Petitioner Vinicio Jesus Garcia, a Texas inmate, has filed a pro se application
for writ of habeas corpus under 28 U.S.C. § 2254. See Dkt. Nos.'3 & 4.. This resulting
action has been referred to the undersigned United States magistrate judge for pretrial
management under 28 U.S.C. § 636(b) and a standing order of reference from United
States District Judge Sam A. Lindsay.
The Attorney General of Texas, on behalf of Respondent Lorie Davis, has filed
a court-ordered preliminary response to the habeas petition asserting that the petition
is time-barred. See Dkt. Nos. 18, 20, & 22; see also Dkt. No. 14. And Garcia has filed
a reply to that response. See Dkt. No. 21.
The undersigned now enters these findings of fact, conclusions of law, and
recommendation that the Court should dismiss the habeas application with prejudice
as time-barred.

1

•«

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 2 of 8 PagelD 1330

Applicable Background
In December 2012, Garcia was convicted of murder and sentenced to life
imprisonment. See State v. Garcia, No. F11-57569-S (282d Jud. Dist. Ct., Dallas Cty.,
Tex. Dec. 6, 2012) [Dkt. No. 18-1 at 3-5]. His conviction and sentence were affirmed.
See Garcia v. State, No. 05-12-01693-CR, 2014 WL 1022348 (Tex. App. - Dallas Mar.
13, 20114, pet. refd). The Texas Court of Criminal Appeals (the “CCA”) denied his

v

petition for discretionary review (“PDR”) on November 26, 2014. See Garcia v. State,
(

No. PD-0417-14 (Tex. Crim. App. Nov. 26, 2014) [Dkt. No. 18-1 at 24-26]. And Garcia

%.

did not petition the United States Supreme Court for certiorari review.
Garcia did, however, file a state application for a writ of habeas corpus no sooner

. '2X*

:r H

than November 16, 2015, the date he signed that petition. See Dkt. No. 18-1 at 29. And
the CCA denied his application without written order on July 13, 2016. See Ex parte

"Ui.

Garcia, WR-84,712-01 (Tex. Crim. App. July 13, 2016) [Dkt. No. 18-1 at 41-43].
Legal Standards
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
establishes a one-year statute of limitations for federal habeas proceedings brought
under 28 U.S.C. § 2254. See ANTITERRORISM AND EFFECTIVE DEATH PENALTY ACT OF
1996, Pub. L. 104-132, 110 Stat. 1214 (1996). The limitations period runs from the
latest of:
(A)
the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B)
the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
-2-

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 3 of 8 PagelD 1331

States is removed, if the applicant was prevented from filing by such
State action;
the date on which the constitutional right asserted was initially
(C)
recognized by the Supreme Court, if the right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review; or
the date on which the factual predicate of the claim or claims
(D)
presented could have been discovered through the exercise of due
diligence.
28 U.S.C. § 2244(d)(1).

(
M

a1 *

The time during which a properly filed application for state post-conviction or
other collateral review is pending is excluded from the limitations period. See id. §
2244(d)(2).
The one-year limitations period is also subject to equitable tolling in “rare and

- ti-. »-

■r

exceptional circumstances.” United States v. Riggs, 314 F.3d 796, 800 n.9 (5th Cir.
2002) (citing Davis v. Johnson, 158 F.3d 806, 811 (5th Cir. 1998)).
“Equitable tolling applies principally where the plaintiff is actively misled
by the defendant about the cause of action or is prevented in some
extraordinary way from asserting his rights.” Coleman v. Johnson, 184
F.3d 398, 402 (5th Cir. 1999) (internal quotation marks and citation
omitted). “[T]he principles of equitable tolling ... do not extend to what is
at best a garden variety claim of excusable neglect.” Irwin v. Department
of Veterans Affairs, 498 U.S. 89, 96 (1990). Unfamiliarity with the legal
process does not justify equitable tolling. Turner v. Johnson, 177 F.3d
390, 392 (5th Cir. 1999).
United States v. Kirkham, 367 F. App’x 539, 541 (5th Cir. 2010) (per curiam).
But “a litigant is entitled to equitable tolling of a statute of limitations only if
the litigant establishes two elements: ‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way and
-3-

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 4 of 8 PagelD 1332

prevented timely filing.’” Menominee Indian Tribe of Wis. u. United States, 577 U.S.
136 S. Ct. 750, 755 (2016) (quoting Holland v. Florida, 560 U.S. 631, 649 (2010)).
The United States Supreme Court has reaffirmed “that the second prong of the
equitable tolling test is met only where the circumstances that caused a litigant’s delay
are both extraordinary and beyond its control.” Id. at 756 (emphasis in original); see,
e.g., Farmer v. D&O Contractors, 640 F. App’x 302, 307 (5th Cir. 2016) (per curiam)
(holding that because “the FBI did not actually prevent Farmer or any other Plaintiff
from filing suit” but instead “advised Farmer that filing suit would have been against
sZ. 'c

the FBI’s interest” and “that the RICO claims could be filed after the investigation

rx.

concluded,” “[a]ny obstacle to suit was ... the product of Farmer’s mistaken reliance on
'

the FBI, and a party’s mistaken belief is not an extraordinary circumstance” (citing
Menominee Indian Tribe, 136 S. Ct. at 756-57)).

*

The Supreme Court also has determined that AEDPA’s statute of limitations can
be overcome by a showing of “actual innocence.” See McQuiggin v. Perkins, 569 U.S.
383, 386 (2013). But the actual innocence gateway is only available to a petitioner who
presents “evidence of innocence so strong that a court cannot have confidence in the
outcome of the trial unless the court is also satisfied that the trial was free of
nonharmless constitutional error.” Id. at 401 (quoting Schlup v. Delo, 513 U.S. 298, 316
(1995)). That is, the new, reliable evidence must be sufficient to persuade the Court
that “no juror, acting reasonably, would ha^e voted to find him guilty beyond a
reasonable doubt.” Id. at 386 (quoting Schlup, 513 U.S. at 329); see also Johnson v.
Hargett, 978 F.2d 855, 859-60 (5th Cir. 1992) (“The Supreme Court has made clear that
-4-

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 5 of 8 PagelD 1333

the term ‘actual innocence’ means factual, as opposed to legal, innocence - ‘legal’
innocence, of course, would arise whenever a constitutional violation by itself requires
reversal, whereas ‘actual’ innocence, as the Court stated in McCleskey fv. Zant, 499
U.S. 467 (1991)], means that the person did not commit the crime.” (footnotes omitted;
emphasis in original)).
Analysis
A conviction becomes final under the AEDPA “when there is no more
‘availability of direct appeal to the state courts.’” Frosch v. Thaler, No. 2:12-cv-231,
2013 WL 271423, at *1 (N.D. Tex. Jan. 3, 2013) (quoting Jimenez v. Quarterman, 555
U.S. 113, 119 (2009)), rec. adopted, 2013 WL 271446 (N.D. Tex. Jan. 24, 2013).
And, because Garcia did not petition the Supreme Court for certiorari review,
.V v 7.
♦V

*s

f

msi»».

his state criminal judgment became final for purposes of the AEDPA on February 24,
2015 - 90 days after the CCA refused his PDR. See Roberts v. Cockrell, 319 F.3d 690,
692 (5th Cir. 2003) (observing that, if a petitioner halts the review process, “the
conviction becomes final when the time for seeking further direct review in the state
court expires” and noting that the Supreme Court allows 90 days for filing a petition
for certiorari following the entry of judgment); SUP. CT. R. 13.
Under Section 2244(d)(2), the one-year period to file a federal habeas petition
was tolled from November 16, 2015 to July 13, 2016 - the soonest date that Garcia
could have his state habeas application to the date that the CCA denied that
application. Adding these some 240 days to the one-year period that commenced on
February 24, 2015 means that Garcia’s Section 2254 application should have been filed
-5-

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 6 of 8 PagelD 1334

before the end of October 2016.
But that application was not docketed in this Court until February 1, 2018. See
Dkt. No. 1. Notably, Garcia appears to represent that he executed it on January 25,
2018. See id. at 10. And he argues in that application, see id., and elsewhere, see
generally Dkt. No. 21, that prison officials prevented the timely filing of his Section
2254 petition because he was denied an envelope (in April or May 2017) and because
his belongings, including legal materials, were ransacked (in late November 2017).
i.'

First, to the extent that these contentions are made to assert statutory tolling
under Section 2244(d)(1)(B), the United States Court of Appeals for the Fifth Circuit
has held that, in order to invoke statutory tolling based on an alleged government
' impediment, “the prisoner must show that: (1) he was prevented from filing z. petition
(2) by State action (3) in violation of the Constitution or federal lav/.” Egzrton v.
Cockrell, 334 F.3d 433, 436 (5th Cir. 2003). “These requirements imply an element of
causality and materiality with respect to a prisoner’s ability to file his ... federal
petition. Thus, [a petitioner] ‘must also show that ... [the impediment] actually
prevented him from timely filing his habeas petition.’” Clark v. United Siates, Nos.
3:13-cv-1851-N-BK & 3:92-cr-382-N-l, 2013 WL 5873294, at *2 (N.D. Tex. Nov. 1,
2013) (quoting Krause v. Thaler, 637 F.3d 558, 561 (5th Cir. 2011); citations omitted;
emphasis in Krause)-, see also Winkfield v. Bagley, 66 F. App’x 578, 583 (6th Cir. 2003)
(“Section 2244(d)(1)(B) requires a causal relationship between the unconstitutional
state action and being prevented from filing the petition.” (quoting Dunker v.
Bissonnette, 154 F. Supp. 2d 95, 105 (D. Mass. 2001))).
-6-

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 7 of 8 PagelD 1335

Garcia has not made this showing. Nor has he made a showing that these claims
support equitable tolling. His State-created-impediment assertions are conclusory, in
that he fails to specify that (or how) the alleged actions were in violation of the
Constitution or federal law and that these actions specifically prevented the timely
filing of this petition. There is therefore no alleged causal relationship between the
State action alleged and Garcia’s being prevented from filing (much less timely filing)
the Section 2254 petition. See, s.g., Alston v. Thomas, Civ. No. 11-00062 HG-BMK,
(

2011 WL 4929139, at *7 (D. Haw. Oct. 17, 2011) (“Neither Alston’s inability to
physically attend the law library during the 99 days that SCF was in lockdown in 2010,
the lack of inmate or trained paralegal assistance, nor the alleged lack of pens, papers,
envelopes, and stamps constituted State created impediments within the meaning of
§ 2244(d)(1)(B).”).
But, even if the Court accepts the earliest date that Garcia claims he attempted
t

to mail the Section 2254 application - April 20, 2017 - see Dkt. No.' 3 at 10, that date
is still some 6 months too late. In sum, then, Garcia has not demonstrated that he is
entitled to equitable tolling by showing that “rare, exceptional, or extraordinary
circumstances beyond his control ... made it impossible for him to timely file” his
federal habeas application. Montes v. United States, Nos. 3:13-cv-1936-K& 3:09-cr-286K (4), 2014 WL 5286608, at *3 (N.D. Tex. Oct. 15, 2014) (citations omitted); see also
Menominee Indian Tribe, 136 S. Ct. a 755-56; Holland, 560 U.S. at 649; Fdrmer, 640
F. App’x at 307.
For these reasons, the Section 2254 application is time-barred.
-7-

•*-*

Case 3:18-cv-00262-L-BN Document 23 Filed 09/26/18

Page 8 of 8 PagelD 1336

i

Recommendation
The Court should dismiss the application for a writ of habeas corpus with
prejudice because it is time-barred.
A copy of these findings, conclusions, and recommendation shall be served on all
parties in the manner provided by law. Any party who objects to any part of these
findings, conclusions, and recommendation must file specific written objections within
14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED. R. ClV. P. 72(b).
In order to be specific, an objection must identify the specific finding or
,4

recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s findings, conclusions, and recommendation
where the disputed determination is found. An objection that merely incorporates by

i
reference or refers to the briefing before the magistrate judge is not specific. Failure
to file specific written objections will bar the aggrieved party from appealing the
factual findings and legal conclusions of the magistrate judge that are accepted or
adopted by the district court, except upon grounds of plain error. See Douglass u.
United Servs. Auto. Ass’n, 79 F.3d 1415, 1417 (5th Cir. 1996).
DATED: September 26, 2018

DAVID L. HORAN
UNITED STATES MAGISTRATE JUDGE

-8-

